App. 1
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
JAMES K. COLLINS, M.D.
Plaintiff,
v.
D.R. HORTON-TEXAS, LTD.
Defendant

§ Civil Action No.:
§ 20-1897
§
§
§
§
§

COMPLAINT
(Filed May 29, 2020)
Plaintiff, JAMES K. COLLINS, M.D. (COLLINS)
files this complaint against Defendant, D.R. HORTONTEXAS, LTD (HORTON) and, in support hereof, states
as follows:
JURISDICTION AND VENUE
1. This action is instituted pursuant to Rule
60(b)(4), (d)(1) and (d)(3) of the Federal Rules of Civil
Procedure and the Declaratory Judgment Act, 28
U.S.C. §§2201-2202 to vacate the final judgment entered in 1944 in this Court in the original lawsuit numbered 666 entered without joinder, notice or service
against record title owners of the Texas General Land
Office Land (GLO) patent, Frederick Sieberman Survey, A-497, depriving the owners, without due process,
of the land the subject of this suit for vacatur. A copy

App. 2
of the judgment is attached as Exhibit A (“Federal
Judgment”).
2. Jurisdiction exists because an independent action under Rule 60(b) brought in the same court as the
original lawsuit does not require an independent basis
for jurisdiction. United States v. Beggerly, 524 U.S. 38,
47 (1998). This action is available to prevent a grave
miscarriage of justice brought about when parties in
the original cause number 666 committed fraud of this
Court by “moving” the boundary lines of the contiguous
and exclusive James Hodge, A-19 survey to fraudulently usurp the land of the Frederick Sieberman Survey, A-497, which from the sovereign to this date is a
mutually exclusive survey as to use, title ownership,
patent and ground surveys certified in the GLO. This
action is “to prevent a grave miscarriage of justice” for
land title theft that only became known when a
stranger to title, HORTON, asserted title to the Sieberman land in 2016 based on the metes and bounds description in the Federal Judgment subject to the
requested vacatur.
3. Venue is proper in this Court pursuant to 28
U.S.C. § 1391(a) and this Court has personal jurisdiction over Defendant because all of the events underlying this Complaint have occurred within the territorial
jurisdiction of this District.
4. Specifically, on December 6, 1941, the original
lawsuit assigned case number 666 was brought in diversity in this Court by the owners of the one-league
James Hodge Survey, A19, in Montgomery County,

App. 3
Texas. A copy of the original lawsuit cause number 666
is attached as Exhibit B. The basis for the federal suit
was to partition only the Hodge Survey by and between
the Hodge record title owners to resolve allegations of
improper timber operations and theft within the
Hodge. In March 1944, a bench trial commenced in this
Court that referenced, joined, served and noticed only
the Hodge owners, who were the only participants in
such trial. A copy of the appellate opinion, evidencing
only the Hodge owners were joined in the federal suit,
is attached as Exhibit C supporting such facts. On May
31, 1944, this Court entered the Federal Judgment
wherein ONLY the owners of the Hodge were joined,
served, referenced, included, participated and noticed
of such Federal Judgment.1 See Exhibit A.
5. The venue is also proper in this action under
28. U.S.C. 1391(b) because the subject judicial district
is the location in which the events giving rise to the
claim occurred and where the property that is the subject of the action is situated.
6. Venue is proper in this Court because it was
this Court that divested the record title owners of the
patented GLO Frederick Sieberman Survey, A-497, in
1

As will be discussed infra, the Hodge owners set out to define the timber rights of landowners on an adjacent survey—the
James Hodge Survey—but improperly assigned interest in undeveloped lands of the Frederick Sieberman Survey to the parties
before the court in that case. HORTON later purchased the land
interest (without warranty) assigned by the Hodge owners, using
the Federal Judgment in this federal court’s decision as the basis
for claiming title to the portion of its purchase that fell within the
Sieberman Survey.

App. 4
Montgomery County, Texas, of their property interest
without joinder, notice or service of such suit or judgment in 1944. The Hodge Survey owners committed
fraud on this Court by lying that the property lines of
the GLO’s Hodge Survey extended 1000 feet to the
south of the Hodge Survey’s southern boundary witness marks contrary to GLO’s certified field surveys
that properly show the Sieberman Survey is a patented survey exclusive of the James Hodge Survey
and is recognized in the GLO certified records.2
PARTIES
7. Defendant, D.R. HORTON-TEXAS, LTD.
D/B/A D.R. HORTON AMERICA’S BUILDER (HORTON), is a limited partnership registered and doing
business in the State of Texas, whose principal office
address is 1341 Horton Circle, Arlington, Texas 76011.
Defendant may be served with process herein by service on its registered agent, CT Corporation System,
1999 Bryan St., Suite 900, Dallas, Texas 75201-3136.
HORTON is a successor in interest to the Hodge Survey record title owners, a stranger to the Sieberman
Survey chain of title and who now claims the Sieberman Survey land.

2

See Certificate No. 109, “Frederick Seibermann (sic),” GLO
archives, Vol. 17, No. 325 (May 8, 1866). The official documentation of the land grant is also available at https://s3.glo.texas.gov/
ncu/SCANDOCS/archives.webfiles/arcmaps/webfiles/landgrants/
PDFs/3/1/1/311087.pdf and https://cgis.glo.texas.gov/cfGIS/glomapjs/
basefile.cfm?SDENUM=483390449

App. 5
8. Plaintiff, JAMES K. COLLINS, M.D. (COLLINS) is resident of Montgomery County, Texas. COLLINS acquired title to the Sieberman Survey from the
successors of Frederick Sieberman, to whom the Republic of Texas originally granted the land in 1866.
COLLINS is a descendent or successor in interest of
the record title of the Sieberman Survey land deraigned from Frederick Sieberman to whom the State
of Texas awarded such land for his heroism as a martyr
at Goliad for Texas’ Independence, including through
proper chain of title from and as descendants and successors in interest of Frederick Sieberman, Vernon Evans and James Collins (1828-1889).
STANDING
9. COLLINS has standing because his record title ownership of the Sieberman Survey land, obtained
through his descendants or successors in interest, was
converted under the pretext of the Federal Judgment’s
validity. It is, however, void in the absence joinder and
service as to the Sieberman land. In June 2016, the
first time any entity or person has challenged the ownership or validity of the Sieberman Survey, HORTON
claimed ownership of COLLINS’ Sieberman land in a
quiet title claim in the 284th Montgomery County District Court. HORTON’s claim was founded solely on
the validity of the Federal Judgment, the subject of
this suit for vacatur. The state court honored the void
Federal Judgment (ignoring the due process violations
and COLLINS’ chain of title from the sovereign) and
by summary judgment ordered that the Frederick
Sieberman Survey, A-497, did not exist—contrary to

App. 6
current state and county government records and even
HORTON’s own records to the contrary. Such state order establishes actual and imminent harm to COLLINS by memorializing the “taking” of COLLINS’
Sieberman land without joinder or service of the
Sieberman Survey record title owners, now COLLINS.
This Court can redress such injury of the fraudulent
“extinguishment” of an existing state land survey now
owned by COLLINS by this vacatur suit to void the
Federal Judgment as to the patented Sieberman Survey.
10. The record title ownership of the Sieberman
Survey is deraigned from the sovereign of the soil to
COLLINS as a descendent or successor in interest of
the record title. Since HORTON is a stranger to the
title of the Sieberman Survey, but had “captured” the
Sieberman land mass by including it in a metes and
bounds description in a deed HORTON prepared into
itself to be part of the Hodge Survey land HORTON
purchased from the Hodge Survey owners without
warranty in Dec. 2012. To defraud the state court,
HORTON simply claimed the Sieberman Survey did
not exist, after including it in its own subdivision surveys, because the Federal Judgment arrogated it. The
Sieberman Survey undisputedly exists and HORTON
admitted it. It is a GLO patent exclusive of all other
surveys in which the Sieberman record title owners,
now COLLINS, have never been legally divested in the
absence of due process. Below is evidence of the current
existence of COLLINS’ Sieberman Survey as identified
by the certified records of the Montgomery County Appraisal District screenshot of October 2014:

App. 7

App. 8
11. Below is evidence of the existence of COLLINS’ Sieberman Survey as identified by the State of
Texas’ GLO online information for the Sieberman Survey which can also be accessed by hyperlink at: See
Certificate No. 109, “Frederick Seibermann (sic),” GLO
archives, Vol. 17, No. 325 (May 8, 1866). The official
documentation of the land grant is also available at
https://s3.glo.texas.gov/ncu/SCANDOCS/archives.web
files/arcmaps/webfiles/landgrants/PDFs/3/1/1/311087.
pdf and https://cgis.glo.texas.gov/cfGIS/glomapjs/basefile.cfm?SDENUM=483390449

App. 9

App. 10
12. Below is evidence of the existence of Texas’
GLO survey master plat showing the current location
of the Sieberman survey certified current as of July 5,
2016:

App. 11

App. 12
13. Below is HORTON’s own survey prepared by
HORTON for its own subdivision showing the existence of the Frederick Sieberman survey filed with the
City of Conroe and Montgomery County planning commissions on or near March 2015:

App. 13

App. 14
14. COLLINS has injury-in-fact because his land
title deraigned from the sovereign was legally challenged in state court for the first time in 2016 by a
stranger to the Sieberman Survey title, HORTON.
COLLINS’ injury is caused solely by the Federal Judgment that is undisputedly void in the absence of joinder or service by the Hodge Survey owners. COLLINS’
injury can be redressed by a favorable decision of vacatur of COLLINS’ Sieberman Survey interest by this
Court. COLLINS has standing as a descendant or successor-in-interest and current record title owner from
the sovereign of the land the subject of this vacatur.

EXHIBITS
15. The exhibits attached to this Complaint are
as follows:
A. Judgment, Cause No. 666, Lillie B.
McCormack, et al. v. Grogan Cochran Lumber
Company, et al. (includes on James Hodge Survey,
A-19, owners), from the District Court of the
United States for the Southern District of Texas –
Houston Division dated May 31, 1944;
B. Complaint, Cause No. 666, Lillie B.
McCormack, et al. v. Grogan Cochran Lumber
Company, et al., (includes on James Hodge Survey,
A-19, owners) filed in the District Court of the
United States for the Southern District of Texas –
Houston Division on Dec. 6, 1941;
C. Appellate Opinion, Docket No. 11482,
McComb, et al., v. McCormack, et al., (includes on

App. 15
James Hodge Survey, A-19, owners) 159 F.2d 219
(5th Cir. 1947), affirmed on grounds unrelated to
the subject Complaint);
D1. Toni Sharretts Collins Affidavit and Attorney Title Opinion dated September 9, 2016;
D2.
2020;

James Collins’ Affidavit dated May 26,

E. Texas General Land Office Records Certified July 5, 2016 – that include excerpts of the
Montgomery County Master Survey Map dated
March 31, 1943 updated through Dec. 6, 2002
showing the existence of the mutually exclusive
James Hodge Survey, A-19 and the Sieberman
Survey, A-497, as well as the actual one (1) league
patent for the Hodge and the patents and no-conflict surveys for the Sieberman. A current hyperlink to the GLO files and website: https://s3.glo.
texas.gov/ncu/SCANDOCS/archives.webfiles/arc
maps/webfiles/landgrants/PDFs/3/1/ 1/311087.pdf
F. Texas General Land Office Records and
Survey Maps dated May 31, 2016. A current map
can be accessed showing the existence of the
GLO’s Sieberman Survey on the GLO’s website:
https://cgis.glo.texas.gov/cfGIS/glomapjs/basefile.
cfm?SDENUM=483390449
G. Montgomery County Appraisal District
Records of Oct. 2014 – screenshots of their records
of the Sieberman Survey.
H. City of Conroe
Records of April 21, 2016
tion for subdivision – that
gineers, and the City

Planning Commission
of HORTON’s applicashow HORTON, its enof Conroe Planning

App. 16
Commission acknowledge the existence of the
Sieberman Survey of which HORTON claims does
not exist because its land was divested and opined
out of existence from the Sieberman Survey owners by the void Federal Judgment from this Court
by the void Federal Judgment from this Court the
subject of this suit for vacatur.
I. City of Conroe Planning Commission Records of Aug. 6, 2015 of HORTON’s application for
subdivision – that show HORTON, its engineers
and the City of Conroe Planning Commission
acknowledge the existence of the Sieberman Survey, which HORTON also claims does not exist because its land was divested and opined out of
existence from the Sieberman Survey owners by
the void Federal Judgment from this Court by the
void Federal Judgment from this Court the subject
of this suit for vacatur.
J. City of Conroe Planning Commission Records of Sept. 15, 2016 of HORTON’s application for
subdivision – that show HORTON, its engineers,
and the City of Conroe Planning Commission
acknowledge the existence of the Sieberman Survey, which HORTON also claims does not exist because its land was divested and opined out of
existence from the Sieberman Survey owners by
the void Federal Judgment from this Court by the
void Federal Judgment from this Court the subject
of this suit for vacatur.
K. City of Conroe Planning Commission
Records of Nov. 3, 2016 of HORTON’s application
for subdivision – that show HORTON, its engineers, and the City of Conroe Planning

App. 17
Commission acknowledge the existence of the
Sieberman Survey, which HORTON also claims
does not exist because its land was divested and
opined out of existence from the Sieberman Survey owners by the void Federal Judgment from
this Court by the void Federal Judgment from this
Court the subject of this suit for vacatur.
L. HORTON Records – from their agent and
surveyor, Robert L. Boelsche that show HORTON
and its engineers, used the records from Montgomery County, the GLO, and the public property records to discern the title to the Hodge land they
acquired without warranty in a cash sale, and
were fully aware of the existence of the Sieberman
Survey, which HORTON’s seller did not own record title because its land was improperly divested
and opined out of existence from the Sieberman
Survey owners by the void Federal Judgment from
this Court the subject of this suit for vacatur.
M. HORTON Emails – from Oct. 2012 between HORTON employees prior to HORTON’s
purchase of the HODGE land that shows HORTON was fully aware of the existence of the
Sieberman Survey of which HORTON’s seller did
not own record title. HORTON later claimed the
Sieberman Survey did not exist, so HORTON
owned it because the Federal Judgment, the subject of this suit for vacatur, “extinguished” the
Sieberman Survey despite the absence of due process.

App. 18
STATEMENT OF FACTS
16. Frederick Sieberman fought for the independence of Texas from Mexico. On March 27, 1836, he
and over 400 other Texians were massacred at Goliad.
For his service, the State of Texas issued Sieberman’s
estate 1/3rd league of land, the Frederick Sieberman
Survey, memorializing his heroism. See supra fn. 2.
From May 1-4, 1866, John Marshall Wade, Surveyor of
Montgomery County, surveyed the land, then subsequently filed the plats and field notes with the GLO.
On May 29, 1866, Texas’ Governor Andrew Hamilton
granted Sieberman’s estate a land patent and assigned
Abstract 497. The Sieberman Survey is situated to the
south of the James Hodge Survey and north of the David Thomas Survey. In 1878, a second field survey by
special deputy Montgomery County surveyor Sam
Clepper confirmed the Seiberman Survey did not conflict with other adjacent land surveys. The GLO records confirmed Mr. Clepper followed Mr. Wade’s
original footsteps and found Mr. Wade’s witness marks
to corroborate with no conflict, then filed his plats and
notes with the GLO, thus confirming the exclusivity
and existence of the Sieberman Survey. COLLINS acquired title of the Sieberman Survey by special warranty deeds from Sieberman’s successors.
17. In 1831, Mexico granted to colonist James
Hodge one-league of land surveyed by Elias Wightman
with the ground survey and patent filed with the GLO.
The Hodge Survey is located to the north and contiguous to the Sieberman Survey. It was determined in
1866 and again in 1878 by two separate surveyors (Mr.

App. 19
Wade and Mr. Clepper, respectively) to be mutually exclusive of the Sieberman Survey. See supra fn. 2.
18. On December 6, 1941, the day before Pearl
Harbor was bombed, the Hodge Survey owners
brought suit against each other in federal diversity under Cause No. 666 over timber rights and operations
but limited only to the Hodge Survey (“Federal Suit”).
Only the Hodge Survey owners were joined, served or
notified of the Federal Suit. “The principal purpose of
the suit and controlling matter in the suit . . . was the
establishment of their [timber conversion and interior
partition] claims regardless of the location of the
James Hodge Survey.” McComb, et al. v. McCormack, et
al., 159 F.2d 219, 225 (5th Cir. 1947).
19. Ultimately, this Court rendered the Federal
Judgment on May 31, 1944, one week before the Allies
landed in Normandy on D-Day, that purports to locate
and partition the James Hodge survey amongst the
parties therein but that also fraudulently allocated a
portion of the Sieberman Survey, without accounting
for or even making reference to that survey or the records of the GLO – the repository of state property records that actually defines real property ownership in
Texas as a matter of law. The decision amounted to this
Court’s simply ignoring due process as well as Texas
law and its requirements for setting boundaries in favor of a system of its own devising. It is undisputed
that the Sieberman owners were never served or notified of the Federal Judgment, nor did they voluntarily
appear. It is undisputed that the Sieberman owners,
now COLLINS, never received actual, legal or

App. 20
constructive notice of the Federal Judgment until
HORTON filed a state trial court suit to quiet title in
June 2016 in the 284th Montgomery County Judicial
District Court in Texas.
20. In June 2016, COLLINS informed the trial
court of the Sieberman patent, title history, Federal
Judgment and its constitutional infirmity as to COLLINS’ interest in the Sieberman survey in absence of
personal jurisdiction over the owners. COLLINS informed the trial court of the details of the federal questions sought to be reviewed with sufficient precision to
enable the state court to have considered such constitutional violations in COLLINS’ petition for trespass
to try title in June 2016, their Response to HORTON’s
Motion for Summary Judgment (MSJ) in September
2016, and their Sur-Reply to MSJ in October 2016.
COLLINS argued to the trial court that “for one to be
bound by a judgment in a suit to which it was not a
party and of which it had no notice is unconstitutional.” Auster Oil & Gas, Inc. v. Stream, 891 F.2d 570,
581 (5th Cir. 1990). COLLINS requested that, since no
Sieberman title owners received notice of the Federal
Suit or Federal Judgment, and such Federal Judgment
was HORTON’s only foundation for title to it, the state
trial court should set aside consideration of the void
Federal Judgment as a basis for HORTON’s title to
COLLINS’ Sieberman Survey land. Nevertheless, the
trial court—by summary judgment—granted title to
HORTON in derogation of the requisites of Texas’ title
law and federal constitutional protections and made no
attempt to review the merits of COLLINS’ record title

App. 21
ownership but relied upon the validity of the Federal
Judgment to grant HORTON title to COLLINS’
Sieberman land. This despite HORTON being a complete stranger to the SIEBERMAN title and the
Sieberman owner’s never having been noticed or joined
in any suit or claim that would or could have deprived
COLLINS of his land.
21. A state court cannot “unvoid” an infirm federal judgment so it can be used. The state trial court
summarily enforced the infirm Federal Judgment as
the only grounds to vest title in a stranger to the title
of the Sieberman Survey. Two wrongs do not make a
right. This Court should grant vacatur of the Federal
Judgment as to the Sieberman land and land owners
to a) correctly adjudicate federal rights, b) uphold the
Constitution, c) to discourage and prevent similar
fraud on this Court, d) to prevent future land title
theft, e) to uphold Federal Rule 60(b)(4) and (d)(3) and
e) uphold this Court’s mandate that a void judgment
remains void.
22. HORTON claims the void Federal Judgment
opined the GLO’s currently existing Frederick Sieberman Survey, A-497, out of existence, so HORTON by
default (and with no connection or mutuality to the
Sieberman chain of title from the sovereign) owns the
land because it is a part of HORTON’s Hodge survey
purchase—CONTRARY TO ALL GOVERNMENT
RECORDS AND ITS OWN SURVEY RECORDS. No
dispute exists that the Federal Judgment is void as to
the Sieberman owners and land. See Exhibits A-D,
which evidence that no Sieberman owners were

App. 22
named, joined or served in the Federal Judgment, Federal Suit, or Appellate opinion and substantiates that
only the Hodge owners alone participated in the suit
in this Court. It is clear by all the evidence that COLLINS’ Frederick Sieberman Survey, A-497 exists, COLLINS owns it and the Federal Judgment is void as to
the Sieberman land and owners. The Hodge owners
committed fraud on the court. The Sieberman owners
were never joined or served the Federal Suit or Federal
Judgment. The Hodge owners, nor their successors including now HORTON, ever used or made a claim to
the Sieberman land before 2016.
23. The Frederick Sieberman Survey, A-497,
land patent currently exists in all government records
including the State of Texas (certified Exhibits E, F
and supra fn. 2), Montgomery County (certified Exhibit
G), City of Conroe and HORTON (certified Exhibits
HK), HORTON’s Engineers, Texas Railroad Commission and other owners (Exhibit L), and HORTON’s employees, agents and Texas Railroad Commission
(Exhibit M), contrary to the Federal Judgment. Take
judicial notice that HORTON only purchased land in
the James Hodge Survey, so it was critical that they
come up with a scheme to claim title to the Sieberman
Survey since they had no record title, obtained title
through a warrantless deed on a cash basis. Their
scheme was to play the “trump” card that the Federal
Judgment deraigned title to them but it is void as to
the Sieberman land, and their ruse is a gross miscarriage of justice to COLLINS, this Court and the Constitution.

App. 23
24. On December 20, 2018, the Fourteenth Court
of Appeals affirmed the trial court’s decision but wholly
failed to address Collins’ paramount constitutional arguments citing inapposite case law and completely ignoring the Constitution relative to the Federal
Judgment due process violation to COLLINS. Even as
the appellate court effectively acknowledged HORTON’s argument that the 1944 federal court judgment
placed the boundary line between the Hodge and
Thomas surveys “in the area that would have contained the Sieberman survey,” it asked no other questions about the Federal Judgment, including the
crucial questions as to whether COLLINS or any of
their predecessors—holders of interests in the Sieberman Survey—were party to it. The appellate court’s
opinion affirming summary judgment for HORTON
expressly relied upon the validity of this Court’s Federal Judgment as affecting COLLINS’ rights.
25. The Fourteenth Court of Appeals of the State
of Texas’ opinion should have turned, in major part, on
the validity and binding nature of the Federal Judgment and appellate holding, McComb v. McCormack,
that opined out of existence the Sieberman Survey, a
land grant from the sovereign Republic of Texas that
still exists in the records of the GLO. Those records
openly contradict the sole basis for HORTON’s state
court summary judgment argument in the trial court
and Horton’s position taken at the very time HORTON
filed its MSJ. But neither COLLINS nor any other
party in privity with COLLINS nor any owner of the
Sieberman Survey was made a party to the Federal

App. 24
Suit or Federal Judgment much less given notification
or knowledge of an appeal and opinion of the Fifth Circuit. Consequently, the Federal Judgment had the effect of taking away vested property rights from parties
and their successors who were never even made aware
of the Federal Suit at the time when it could have been
challenged directly. This Court has the power of vacatur of the Federal Judgment to correct it to the extent
that it incorrectly adjudges the rights of the Sieberman
heirs, their descendants, successors and assigns, now
COLLINS, who is the record title owner from the sovereign and who has used and enjoyed such land without interruption until HORTON’s quite title claim in
2016.
26. The state court made use of a decision from
this Article III court to perpetuate, rather than alleviate, an injustice. The issue strikes at the heart of the
integrity of this federal Court’s decisions, the propriety
of such decisions, and the respect that such decisions
will ultimately receive from the public. This case calls
upon this Court to exercise its preeminent authority to
guarantee that the legislative and judicial pronouncements of this Court conform with the Constitution of
the United States and grant vacatur of this Court’s
Federal Judgment as to the Sieberman land and owners who were not joined or served.
27. This issue is pending certiorari before the
United States Supreme Court docketed May 19, 2020.
The Supreme Court of Texas denied Petitioners’ Petition for Review on July 26, 2019. The opinion of Texas’
Fourteenth Court of Appeals affirming the trial court’s

App. 25
decision was reported at 574 S.W.3d 39 on Dec. 20,
2018. The trial court, the 284th District Court for
Montgomery County, Texas, issued no opinion but entered a summary judgment that the Sieberman Survey
did not exist on Nov. 8, 2016 and a final judgment on
June 9, 2017. The state court never adjudicated the title to the Frederick Sieberman Survey, A-497, on the
merits. This Court never adjudicated the title to the
Frederick Sieberman Survey, A-497, on the merits as
the Sieberman owners, descendants, successors or assigns were never joined, served, noticed or in anyway
participated in the Federal Suit, Federal Judgment or
appeal. The Sieberman owners never had any opportunity to challenge such the Federal Judgment until
2016, when upon learning of a claim immediately filed
suit to defend the title to the Frederick Sieberman Survey, A-497. This Court should properly grant vacatur of
the Federal Judgment as to the Frederick Sieberman
Survey, A-497.
ARGUMENTS AND AUTHORITIES
Federal Rule 60(b)(4)
28. Federal Rule of Civil Procedure 60(b) provides that a court may relieve a party from a final judgment under certain conditions. FED. R. CIV. P. 60(b).
More specifically, Rule 60(b)(4) states that the “court
may relieve a party or its legal representative from a
final judgment [when . . . ] the judgment is void.” Id. A
party’s “legal representative” is one who stands in
place and stead of another and reaches only

App. 26
individuals in a position tantamount to that of a party
or whose legal rights are so intimately bound up with
the parties that their rights are directly affected by the
final judgment. In re Matter of El Paso Refinery, L.P.,
37 F.3d 230, 234 (5th Cir. 1994). A judgment is void under Rule 60(b)(4) when the rendering court lacked personal jurisdiction over the defendant for improper
service of process. Diggs v. Ditech Financial, LLC, 2016
LEXIS 143669 at * 1 (W.D. Tex. Oct. 17, 2016) (citing
Recreational Props., Inc. v. SW Mortg. Serv. Corp., 804
F.2d 311, 314 (5th Cir. 1986)).
29. The Sieberman Survey record title owners
were never joined, served, noticed or even mentioned
in any of the pleadings in the 1941 federal suit (Exhibit
B) or the 1944 Federal Judgment (Exhibit A). At the
time the suit was filed in 1941, the Sieberman Survey
was a land survey patented by the GLO in 1866 and
was still very much existent (Exhibits E & F) and still
exists today (Exhibits G-M) and GLO hyperlinks: https://
s3.glo.texas.gov/ncu/SCANDOCS/archives.webfiles/arc
maps/webfiles/landgrants/PDFs/3/1/1/311087.pdf https://
cgis.glo.texas.gov/cfGIS/glomapjs/basefile.cfm?SDENUM=
483390449 The record title owners in 1941 were
Vernon Evans and the heirs of James Collins (Exhibits
D1 and D2). The Sieberman Survey record title owners
were never served, joined, noticed, or in no way participated in the 1941 federal proceeding as evidenced by
their absence in the petition, judgment and opinion.
(Exhibits A-C). The James Hodge Survey owners were
arguing about the division of ownership within the
James Hodge Survey universe of land, and owners and

App. 27
were strangers to the title to the Sieberman Survey. Id.
However, rather than using the GLO patent records
and/or following the witness marks and field notes of
the patents to determine the boundaries of the James
Hodge Survey for the purposes of internal partitioning,
as required by Texas Survey law, the James Hodge
owners created their own “map . . . calculated by [their
surveyor] and not represented by any marks on the
ground.” McComb, et al. v. McCormack, et al., 159 F.2d
219, 222 (5th Cir. 1947). Then, the James Hodge owners without notice to their next door neighbors, the
Sieberman Survey record title owners, in a federal suit
that the Sieberman owners knew nothing about, lied
to this Court and outrageously testified the James
Hodge survey extended across what is the Sieberman
Survey land with a metes and bounds description so as
to never be questioned about the Sieberman Survey
patent because this Court was never shown the actual
GLO field surveys and patents for either the James
Hodge Survey nor the Sieberman Survey that not only
existed but had been fully updated on a comprehensive
GLO map on March 31, 1943. Id. at 224; See Exhibit E.
30. When an independent action or motion is
based on a void judgment under rule 60(b)(4), the district court has no discretion—the judgment is either
void or it is not. See Honneus v. Donovan, 691 F.2d 1, 2
(1st Cir. 1982) (dicta); Jordon v. Gilligan, 500 F.2d 701,
704 (6th Cir. 1974), cert. denied, 421 U.S. 991 (1975).
See also C. Wright & A. Miller, Federal Practice and
Procedure, § 2862, at 197 (1973). If a court lacks jurisdiction over the parties because of insufficient service

App. 28
of process, the judgment is void and the district court
must set it aside. See Gold Kist, Inc. v. Laurinburg Oil
Co., 756 F.2d 14, 19 (3d Cir. 1985). Recreational Properties, Inc. v. Southwest Mortg. Service Corp., 804 F.2d
311, 314 (5th Cir. 1986).
31. Failure to give notice violates the most rudimentary demands of due process of law. Peralta v.
Heights Medical Center, Inc., 485 U.S. 80, 84 (1988). Because courts prefer adjudication on the merits, there
must be strict compliance with the legal prerequisites
establishing the court’s power to render a default judgment (or in this case not even a judgment by default by
fraud). Bludworth Bond Shipyard, Inc. v. M/V Caribbean Wind, 841 F.2d 646, 649 (5th Cir. 1988).
32. There is generally no timeliness requirement
applicable to a Rule 60(b)(4) motion. Id. Once the validity of service of process has been contested, the
plaintiff whose service is drawn into question bears the
burden of establishing its validity. Carimi v. Royal Carribean Cruise Line, Inc., 959 F.2d 1344, 1346 (5th Cir.
1996).
33. Here, the Hodge Survey owners, their descendants, successors and assigns, now HORTON,
made no attempt to include, join, service, notice or in
any way allow upon the Sieberman Survey owners,
their descendants, successors and assigns, now COLLINS, to participate in the Federal Suit. (See Exhibits
A-C). Not even the barest attempt was made to include
the Sieberman Survey owners, now COLLINS, in a
lawsuit wherein the Hodge survey owners

App. 29
fraudulently testified to this Court that all necessary
parties were present. The Hodge owners admitted into
evidence an erroneous survey that usurped and fraudulently converted the Sieberman Survey owner’s land,
enlarged the James Hodge one-league survey by over
400 acres by describing the land by metes and bounds
and never mentioning the patented Sieberman Survey
or the Sieberman Survey records title owners. These
lies were completely contrary to the GLO patented
ground surveys that to this day still show the actual
one-league James Hodge Survey (not the fabricated
map admitted in the 1941 federal suit)and the actual
existing Sieberman Survey patents – both existing and
mutually exclusive. The GLO records corroborate with
the witness marks and ground stakes described in the
certified records of the GLO—contrary to the Federal
Judgment. Since, the Sieberman owners were not present to participate and object to the erroneous survey
plats nor present evidence of their exclusive Sieberman Survey, the Hodge owners were able to lie with
impunity to this Court and commit land theft—until
now.
34. Interesting, the Hodge owners did not act on
such void Federal Judgment as to the Sieberman owners but rather did nothing. They did not use, develop,
cut timber, take out loans, clear, fence or in any way
actually acknowledge or possess the Sieberman land
until they sold the “Hodge Only” land to HORTON
without warranty for cash in Dec. 2012. When COLLINS learned of HORTON’s claim, COLLINS filed suit
immediately in June 2016. However, the state court

App. 30
validated the void Federal Judgment that the Sieberman Survey was “extinguished,” contrary to COLLINS’
record title from the sovereign and all government records that the Sieberman Survey exists and is recognized today. HORTON does not dispute that the
Frederick Sieberman Survey record title owners were
not joined, serviced, noticed nor participated in the
Federal Suit but, instead, relies wholly on the void Federal Judgment as the basis for their title to the Sieberman Survey land. This Court should grant vacatur of
the Federal Judgment.
Federal Rule 60(d)(3)
Fraud on the Court
35. To prove fraud upon the court under FED. R.
CIV. P. 60(d)(3) the movant must establish: (1) an intentional fraud; (2) by an officer of the court; (3) which
is directed at the court itself; and (4) that in fact deceives the court. Id. (citing Herring v. United States,
424 F.3d 384, 390 (3rd Cir. 2005)). The first element requires proof of common law fraud, i.e. a material misrepresentation of fact or law, with knowledge of the
falsity, intent to deceive, justifiable reliance and damages. See Field v. Mans, 516 U.S. 59, 68-70, (1995) (holding that statutory use of the term fraud incorporates
the common law definition, and then turning to the Restatement of Torts for a “distillation” of that definition).
Fraud on the Court is an express ground for relief by
motion under Rule 60. Hazel -Atlas Glass Co. v. Hartford-Empire Co., 322 U.S. 238 (1944).

App. 31
36. Here, the Hodge Survey owners, their descendants, successors and assigns, now HORTON,
made a material misrepresentation of fact or law to the
1944 judge at the bench trial that all the necessary
parties were joined and served, then presented an erroneous survey and applied incorrect state substantial
law to surreptitiously divest the Sieberman record title
owners, now COLLINS of their land. They did so with
knowledge of the falsity, intent to deceive the Court, in
which the Court justifiably relied resulting in the damages of COLLINS’ record title now being stolen as
damages. The attorneys for the Hodge owners were officers of this Court and perpetuated the fraud directed
at this Court and the Court believed the uncontroverted testimony (because the Sieberman owners were
not joined to defend their actual record title), so the
Court was in fact deceived. Thus, the Hodge owners,
now HORTON, committed fraud on this Court, so this
Court should set such 1944 judgment aside as to the
Sieberman land.
The Federal Judgment Violates the
14th Amendment of the U.S. Constitution.
37. The Fourteenth Amendment does not allow
enforcement of a void federal judgment obtained without personal jurisdiction over and notice to the defendant. U.S. Const. amend. XIV. Section 1, provides, in
relevant part, “No state shall . . . deprive any person of
life, liberty, or property, without due process of law; nor
deny to any person within its jurisdiction the equal
protection of the laws.” An elementary and

App. 32
fundamental requirement of due process in any proceeding which is to be accorded finality is notice reasonably calculated, under all the circumstances, to
apprise interested parties of the pendency of the action
and afford them an opportunity to present their objections. Milliken v. Meyer, 311 U.S. 457 (1940); Grannis v.
Ordean, 234 U.S. 385 (1914); Priest v. Las Vegas, 232
U.S. 604 (1914); Roller v. Holly, 176 U.S. 398 (1900).
38. It is undisputed that the Sieberman owners,
including COLLINS, were never personally served
with process, joined or noticed of the Federal Suit.
These contentions were not controverted at this
Court’s 1944 federal bench trial or the state trial
court’s summary judgment hearing. Further, COLLINS proved the Sieberman Survey record title owners’ superior title from the sovereign into COLLINS
and such title had superior legal boundaries as set out
in the perfected GLO patent that very much still exists.
The trial court nor appellate court addressed the constitutional conflict of due process.
39. This means that the Federal Judgment is
wrong and should be vacated as to the Sieberman Survey. A judgment rendered in violation of the Fourteenth Amendment in the Constitution is void and
cannot serve as any basis for depriving a person of
their rights. World-Wide Volkswagon Corp. v. Woodson,
444 US. 286, 291 (1980). The Federal Judgment was
entered without notice or service, making it a nullity.
Peralta, 485 U.S., at 84. Allowing it to stand allows a
conflict with this Court’s own ruling.

App. 33
The Federal Judgment Violates the
10th Amendment of the U.S. Constitution.
40. The Tenth Amendment does not allow federal courts to ignore state law in federal diversity actions. Erie Railroad Co. v. Tompkins, 304 U.S. 64 (1938)
(holding that federal courts, when confronted with the
issue of whether to apply federal or state law in a lawsuit, must apply state law on issues of substantive
law). Texas law governs interest in land titles as well
as surveys and is uniquely a creature of state law. Severance v. Patterson, 370 S.W.3d 705, 713 (Tex. 2009). It
is indisputable that this Court did not apply state law
in adjudicating this partition action in federal diversity. McComb v. McCormack, 159 F.2d, at 226.3 The decision amounted to this Court’s simply ignoring Texas
law and its requirements for setting boundaries in favor of a system of its own devising.

3

The federal 5th Circuit opinion, that was affirmed on other
grounds, evidences three flagrant judicial errors of omission of application of state law. First, in Texas “[t]he cardinal rule is that
the footsteps of the original surveyor . . . should be followed.” T.H.
Investments, Inc. v. Kirby Inland Marine, L.P., 218 S.W.3d 173,
207 (Tex. App.—Houston [14th Dist.] 2007, pet. denied). This
Court did not rely upon the GLO’s original witness marks for the
Hodge Survey in subject of the suit. Second, this Court did not
review or rely upon the original footsteps or witness marks for the
Sieberman Survey certified in the GLO files much less even review the survey or consider the title owners absence. Id. Third,
“stare decisis is never stronger than in protecting land titles, as
to which there is great virtue in certainty.” Blaffer v. State, 31
S.W.2d 172, 191 (Tex. 1930). The stare decisis in the instant case
is the GLO’s historic, certified and current Seiberman Survey
boundaries and land titles never questioned until 2016.

App. 34
41. But for the Fourteenth Amendment due process violation, the Tenth Amendment violation would
certainly not have occurred. Had the Sieberman Survey owners been joined in the suit, they would have
had the opportunity to object to the improper state law
application by the federal court. This Court should vacate the Federal Judgment as to the Sieberman Survey
to correct this Court and the state court’s erroneous
decision to the extent that it incorrectly adjudges
rights of due process.
COUNT 1
CLAIM FOR DECLARATORY JUDGMENT
42. Paragraphs 1 through 41 are incorporated
herein by reference.
43. This is an action for declaratory relief pursuant to 28 U.S.C. § 2201.
44. This is an actual and justiciable case and
controversy between COLLINS, the descendants or
successors in interest to the Frederick Sieberman Survey, A-497, owners and land, and HORTON, the successors in interest to the James Hodge Survey, A-19,
regarding the enforceability and validity of the Federal
Judgment. COLLINS seeks to have his status as the
record title owner of the Sieberman Survey and declaration of its existence restored with respect to this controversy.
45. HORTON claims record title ownership of
the Frederick Sieberman Survey, A497, land to which

App. 35
it is a stranger to title from the sovereign, by virtue of
its cash purchase without warranty in Dec. 2012 of
land located only in the James Hodge Survey, A-19 and
whose only basis for such claim is the Federal Judgment entered in 1944 without joinder, service or notice
until 2016 of the Sieberman Survey owners, now COLLINS from the sovereign. The trial court without consideration or adjudication on the merits of the Federal
Judgment determined summarily that the Frederick
Sieberman Survey, A-497, did not exist contrary to all
government records in derogation of COLLINS’ title
ownership and rights.
46. HORTON has filed and registered its judgment from the state court in the Montgomery County
property records, a state court judgment granted title
to HORTON without any title basis except the void
Federal Judgment and that incorrectly affirmed this
Court’s void Federal Judgment which was obtained
without due process. HORTON cleared all the forest
and trees from COLLINS’ Sieberman Survey land and
included the land in its subdivision plats as its own,
thereby injuring COLLINS.
47. COLLINS believes the Federal Judgment is
infirm, void, invalid and unenforceable in the absence
any due process of any kind; consequently, COLLINS
requests his rights be fully restored, his record title be
fully restored, the Frederick Sieberman Survey, A-497,
be declared existential in accordance with the State of
Texas General Land Office, all witness marks and
ground surveys, Texas Railroad Commission, and
COLLINS’ record title from the sovereign.

App. 36
48. COLLINS has suffered injury resulting from
HORTON’s conduct because COLLINS has a financial
and real property record title interest in the Sieberman Survey land, which HORTON claims ownership
thereof via judicial mandate from State court based
solely on the void Federal Judgment. COLLINS’ life
has been significantly disrupted by HORTON’s actions
of claiming COLLINS’ land, including COLLINS’ property in its planned Fosters Ridge subdivisions, clearing
all COLLINS’ land, arresting COLLINS for trespass
on his own land, converting COLLINS personal property by removing and destroying COLLINS’
$15,000.00 fence, and building homes on the Sieberman land, then selling such homes to innocent third
parties despite a valid lis pendens.
49. COLLINS therefore brings this action asking
this Court’s declaration and determination of the
rights of the parties by vacating the Federal Judgment
obtained in the absence of due process in dereliction of
the constitutional and property rights of the Sieberman descendants, successors in interest, assigns and
current record title owner from the sovereign, COLLINS.
COUNT 2
INDEPENDENT ACTION TO OBTAIN RELIEF
FROM JUDGMENT BASED ON FEDERAL
RULE 60(b)(4) AND 60(d)(1)
50. Paragraphs 1 through 41 are incorporated
herein by reference.

App. 37
51. The Federal Judgment should not, in equity,
law and good conscience, be enforced.
52. COLLINS has several meritorious defenses
supporting his record title ownership as well as the existence of the Frederick Sieberman Survey, A-497, on
which the Federal Judgment and state summary judgment of title ownership were improperly founded, specifically:
a. This Court lacked personal jurisdiction
over the Sieberman owners, descendants, successors in interest and assigns of the Frederick
Sieberman Survey, A-497, land in the absence of
due process (Exhibits A-Federal Judgment; Exhibit B-Federal Suit; Exhibit C-Federal Opinion;
Exhibit D-Affidavits);
b. No service, joinder, notice, participation or
knowledge of the Federal Suit or Federal Judgment was made on the Sieberman owners, descendants, successors in interest and assigns,
including COLLINS, of the Frederick Sieberman
Survey, A-497, so as a matter of law, the Federal
Judgment is void as to the Sieberman Survey land
and owners (Exhibits A-D); Peralta v. Heights
Medical Center, Inc., 485 U.S. 80, 84 (1988).
c. It is undisputed that the Hodge Survey
owners, their descendants, successors and assigns,
including HORTON, do not claim ownership by
limitations but only by virtue of the void Federal
Judgment as to the Sieberman land. Take judicial
notice of HORTON’s claims and replies in and to
its August 2016 motion for summary judgment
filed in the 284th Judicial District Court of

App. 38
Montgomery County, Texas under cause number
15-04-04236;
d. It is undisputed that the Frederick
Sieberman Survey, A-497, has existed since the patent was issued by the GLO in 1866 (Exhibit EGLO certified records of July 2016; Exhibit F-GLO
Screenshot in 2016; current GLO hyperlinks:
https://s3.glo.texas.gov/ncu/SCANDOCS/archives
webfiles/arcmaps/webfiles/landgrants /PDFs/3/1/1/
311087.pdf and https://cgis.glo.texas.gov/cfGIS/
glomapjs/basefile.cfm?SDENUM=483390449.
e. It is undisputed that the Frederick Sieberman Survey, A-497, is an existing survey in the
records of the State of Texas, County of Montgomery, Montgomery County Appraisal District, City
of Conroe and real property records as delineated
by the ground surveys performed by registered
county surveyors that concluded not once, but
twice twenty years apart, the ground surveys and
witness marks for the Frederick Sieberman Survey, A-497, exist exclusive of any other land surveys, including the James Hodge Survey, A-497
(Exhibits E, F, hyperlinks, Exhibit G-Montgomery
County Appraisal District screenshot certified
March 2017; Exhibits H through K-City of Conroe
certified records showing City approved of the patents designated by HORTON of the Sieberman
Survey within its subdivision and HORTON
fraudulently modifying its records to eradicate any mention of the Frederick Sieberman Survey from those same records once HORTON
learned COLLINS owned the record title and was
properly claiming it; Exhibits L and M-HORTON’s
certified deposition records showing it relied upon

App. 39
the Texas Railroad Commission records that reflected the existence of the Sieberman Survey that
HORTON did NOT acquire the record title).
f. It is undisputed that the James Hodge
Survey owners did not in any way include the
Sieberman owners as parties to the Federal Suit,
then committed fraud on this Court by asserting
the James Hodge Survey, A-19, boundaries extended south an additional 1000 feet from the witness marks and surveys certified with the GLO, to
include all of the Frederick Sieberman Survey, A497, land without joining the Frederick Sieberman
owners or the GLO, or the GLO certified records,
nor applying the substantive State of Texas law
required to determine boundaries and record title
ownership in the absence of the necessary parties
to defend their title (Exhibits A-D);
g. It is undisputed that HORTON recognized and included the Frederick Sieberman Survey in its own records and government filed
ground surveys for its subdivision despite not obtaining record title ownership of the Sieberman
Survey (Exhibits H-M);
h. It is undisputed that the state boundary
and state laws to determine title on which the
claim of the Hodge Survey owners, their descendants, successors and assigns, including HORTON,
were based were unenforceable due to the lack of
the requisite statutory implementation and elements primarily because the necessary Sieberman
Survey owners were not present to ensure same
(Exhibit C-F);

App. 40
i. The statutory state substantive laws to determine boundaries and record title ownership
(i.e., trespass to try title), on which the Hodge Survey owners, their descendants, successors and assigns,
including
HORTON,
based
the
enforceability of the Federal Judgment were on
their face improper to support the Frederick
Sieberman Survey, A-497, land could enlarge the
James Hodge Survey, A-19, one (1) league patent
of land nor deprive the Sieberman owners, their
descendants, successors and assigns, including
COLLINS, of his land (Exhibits C-F); and,
j. All other defenses raised by Attorney Collins in this Complaint.
45. The Sieberman Survey owners, their descendants, successors and assigns, including now COLLINS, were prevented from asserting or otherwise
obtaining the benefits of these defenses, because they
were never joined, served, notified, had knowledge of
or in any of the barest way allowed to or voluntarily
participate in the Federal Suit, Federal Judgment of
Federal Appeal against them and were, thus, denied
the opportunity to represent and defend themselves.
53. The efforts by the Hodge Survey owners,
their descendants, successors and assigns, including
now HORTON, to name, locate, serve, join or notice the
Sieberman Survey owners, their descendants, successors and assigns, now COLLINS, of the underlying
Federal Suit and Federal Judgment were non-existent,
so insufficient as a matter of law, and failed to satisfy
due process rights.

App. 41
54. There was no consideration of the merits of
the claims regarding the claim of ownership and
boundaries of the Frederick Sieberman Survey, A-497,
land by this Court or any other court.
55. Moreover, there was an unconscionable plan
or scheme by the Hodge Survey owners, their descendants, successors and assigns, including now HORTON,
to improperly influence this Court and the state courts,
and the integrity of the judicial process was fraudulently subverted by this deliberately planned scheme.
Specifically, upon information and belief, the Hodge
Survey owners, their descendants, successors and assigns, including now HORTON, committed fraud on
this Court and the state courts.
56. First, the Hodge Survey owners intentionally
lied to this Court that all the necessary parties were
joined, served and included in the Federal Suit, knowing that the Frederick Sieberman owners (nor the
GLO) were not joined, served or noticed (much less any
certified GLO patent surveys and records introduced
as evidence), then testified to this Court that the Frederick Sieberman Survey, A-497, land was included in
their Hodge Survey land – thereby increasing their one
(1) league land grant by over 400 acres usurping the
Sieberman Survey land without the knowledge of the
Frederick Sieberman owners nor any state agencies.
57. Second, HORTON, the successor in interest
to the Hodge Survey owners, their descendants, successors and assigns, also committed fraud on this Court
and the state courts by filing a lawsuit which it knew

App. 42
or should have known was invalid due to the lack of
due process in the underlying Federal Judgment which
was HORTON’s only basis for title. HORTON purchased the stolen Sieberman title from the Hodge Survey owners, their descendants, successors and assigns
knowing the Federal Judgment was void and no limitations had occurred that would divest the Sieberman
owners of their land. This is evidenced by HORTON, a
$17 billion savvy land developer, acquiring the “Hodge”
land with a warrantless deed that HORTON prepared
in a cash sale purportedly with no title run or attorney
title review that closed in about sixty (60) days covering a multi-million dollar 800 acre tract of land. It is
on information and belief that HORTON hoped that
the Sieberman owners would not object to the undisclosed title transfer of their richly forested land until
limitations could legally occur—unknown because the
title transfer documentation never referenced or indexed the Sieberman Survey so the Sieberman owners,
including now COLLINS, could not have been on notice
except for the actual visual activities HORTON commenced by trespassing unto COLLINS’ land and destroying and converting COLLINS’ fence on or near
2016. When HORTON’s plan failed, they claimed to the
state court, contrary to all state records and even
HORTON’s own survey records, that the Sieberman
Survey did not exist. HORTON directed the state court
to this Court’s void Federal Judgment, as its only basis
for title, to which COLLINS, the owner of the Sieberman Survey record title ownership and land, has vehemently fought HORTON’s fraud to date to prevent
divestiture of COLLINS’ land and property.

App. 43
58. No fault or negligence by the Sieberman Survey owners, their descendants, successors and assigns,
including COLLINS, contributed to the entry of the
void Federal Judgment.
59.

There is not adequate remedy at law.

60. Given the foregoing facts, the Federal Judgment is void and unenforceable and must be set aside
as to the Frederick Sieberman Survey, A-497, land and
ownership in order to prevent a grave miscarriage of
justice.
61. Redress and vacatur of the Federal Judgment is central to the outcome of correcting this miscarriage of justice. A grant of vacatur would be
outcome-determinative to allow title to remain vested
in the true record title owner from the sovereign, and,
more importantly, would vindicate due process rights,
while recognizing the primacy of state real property
law.
62. How can property owners be stripped of title
when never made party to the suit that took away their
rights? The answer is that, consistent with due process, they cannot. The void Federal Judgment gives
short shrift to this Court’s long-standing protection of
essential due process rights and the equally significant
policy in favor of local control over real property, its
ownership, and its regulation. The constitution and
federal statutes cry out for correction of this error and
to affirm the essentiality of Fourteenth Amendment
rights, and particularly the remedy permitted under
Federal Rule 60 for this exact type of injustice. This is

App. 44
about the deprivation of basic due process rights, enshrined in the Constitution.
63. The United States Supreme Court has consistently stated that the Fourteenth Amendment requires judicial proceedings to be conducted in a
fundamentally fair manner. Lassiter v. Department of
Social Service of Durham City, 452 U.S. 18, 33 (1981).
How is it fundamentally fair or even legal for the state
court to validate the void Federal Judgment that is irrevocably infirm under the Fourteenth Amendment,
not address the constitutional due process violation,
then to summarily award land title against all requisites of state property law in violation of the Tenth
Amendment?
64. The ironic history of our country’s fight for
justice and independence further illustrates the significance of why our judicial process was created by our
founding fathers. Frederick Sieberman was granted
this land patent for his heroism at Goliad as a memorial to his honor for fighting for and dying for Texas’
independence in March 1836. On Dec. 6, 1941, the day
before the United States entered World War II to defend democracy and our country, the Hodge owners
filed suit to partition the Hodge Survey due to timber
theft, given an oddly appropriate cause number 666.
On May 31, 1944, one week before D-Day when the
United States courageously landed at Normandy to
commence the events that led to victory for our country
and the democracy, this Court entered the Federal
Judgment contrary to our constitution and all ethos because the Hodge owners committed fraud on this Court

App. 45
by asserting they owned the Sieberman Survey land
by producing an erroneous survey and not joining the
record title owners to defend their title had they
known of the pendency of the Federal Suit and Federal
Judgment. Ancient and still valid law, not unlike the
Sieberman Survey, mandates “[n]ever move an old
property line that your ancestors established” Proverbs 22-4. Further, “[n]ever move an old property line
or take over land owned by orphans. The Lord is their
powerful defender, and he will argue their case against
you.” Proverbs 23-10, 11. The Hodge owners moved the
old and patented Hodge Survey boundary line south
1000 feet to improperly usurp and convert the Sieberman Survey as their own. HORTON now attempts
nearly eighty (80) years later with a warrantless deed
from a cash sale to take over the Sieberman Survey
land for the first time from the Sieberman record title
owner, COLLINS, by asserting the Federal Judgment
extinguished it. This is fraud, wrong, unconstitutional,
theft, unethical and in direct conflict with this Court’s
laws as well as the Bible.
COUNT 3
INDEPENDENT ACTION TO OBTAIN
RELIEF FROM JUDGMENT BASED ON
FEDERAL RULES 60(d)(1) AND 60(d)(3)
FRAUD ON THE COURT
65. Paragraphs 1 through 41 are incorporated
herein by reference.

App. 46
66. The information submitted by the Hodge
Survey owners, their descendants, successors and assigns, to this Court in the 1941 federal suit was false.
This Court relied upon the Hodge Survey owners, their
descendants, successors and assigns’ submission to
their detriment. As a direct and proximate result of the
Hodge Survey owners, their descendants, successors
and assigns’ fraudulent conduct, COLLINS has suffered damages. Indeed, the Hodge Survey owners, their
descendants, successors and assigns, now including
HORTON, and their attorneys blatantly lied to this
Court. They got away with the lie for many years because they did not allow their fraud to become known
to any government agencies responsible for maintaining title records nor to the Sieberman record title owners. They did this by not using the land, not referencing
the name Sieberman anywhere in the judgment or in
the public records so it could not be indexed or discovered by the Sieberman record title owners, their successors and assign—while the Sieberman owners,
including now COLLINS, continued in blissful ignorance to maintain the land as their own.
67. Here, the Hodge Survey owners, their descendants, successors and assigns, now HORTON,
made a material misrepresentation of fact or law to the
1944 judge at the bench trial that all the necessary
parties, including the Sieberman record title owners
were joined and served, then presented an erroneous
survey that did not evidence the existence of the GLO’s
Sieberman Survey when all GLO patent records,
ground surveys, witness marks and government plats

App. 47
properly reflected the existing Sieberman survey, A497. The Hodge owners and their attorneys applied incorrect state substantial law to surreptitiously divest
the Sieberman record title owners, now COLLINS, of
their land without due process. They did so with
knowledge of the falsity, intent to deceive the Court, in
which the Court justifiably relied resulting in the damages of COLLINS’ record title now being stolen. The
attorneys for the Hodge owners were officers of this
Court and perpetuated the fraud directed at this Court
and the Court believing the uncontroverted testimony
(because the Sieberman owners were not joined to defend their actual record title), the Court was in fact deceived. Thus, the Hodge owners, now HORTON,
committed fraud on this Court, so this Court should set
such 1944 judgment aside as to the Sieberman land.
68. The Hodge owners, their predecessor in interest now being HORTON, testified in the 1944 bench
trial that they owned the Sieberman Survey land by
using a metes and bounds description that fraudulently extended well beyond the patented survey and
witness marks located and filed in the GLO certified
records for the James Hodge survey; thereby, usurping
the Sieberman Survey land. The Hodge owners deceitfully never mentioned or acknowledged in their testimony or plats presented the “Seiberman” survey name
despite the patent’s existence in all government records since 1866 including a recent GLO county master
survey plat completed in and on file on March 31, 1943
(See Exhibit E). The Hodge owners instead used their
own fabricated survey that did not reflect or use the

App. 48
actual patented GLO Sieberman Survey or actual patented GLO James Hodge Survey original witness
marks. One of the Hodge owners’ surveyors testified to
this Court that he found patented original witness
marks but this Court chose not to follow them contrary
to state survey law, to-wit:
“Boyles [Hodge party surveyor] had located
the lines of the James Hodge league by certain
witness marks on the ground. None of these
witness marks were originally placed by
Wightman [the original county survey for the
GLO established patent] but they were accepted by everyone [at the trial except the necessary parties the Sieberman owners who
would have EMPHATICALLY contested this
fraud had they been joined] as the true boundaries of the James Hodge Survey. Atkinson
[another Hodge surveyor but one who contested Boyles findings] never made a complete
survey of the James Hodge Survey, but he
claimed that Boyles had misplaced the James
Hodge Survey because Atkinson had located
one of the original Wightman witness marks at
the Northwest corner of the survey.”
McComb v. McCormack, 159 F.2d 219, 226 (5th Cir.
1947), attached as Exhibit C. Had the Sieberman Survey owners been joined and served so as to be able to
participate in the 1944 federal trial, or even if the
Hodge owners had used the proper state surveying law
with the certified GLO survey plats (which the Sieberman owner would have mandated had they been present), the Federal Judgment would not have been

App. 49
defective nor have improperly “extinguished” an entire
existing GLO survey that belonged to others, the
Sieberman Survey owners, now COLLINS as the successor to such interest.
69. The reason this Court accepted the bogus
Hodge survey presented by the Hodge parties is because none of the necessary Sieberman record title
owners were joined to contest the fraud of the Hodge
owners converting the Sieberman record title owners’
property. This Court should grant vacatur of the Federal Judgment.
COUNT 4
TRESPASS TO TRY TITLE
70. Paragraphs 1 through 41 are incorporated
herein by reference.
71. Federal courts, when confronted with the issue of whether to apply federal or state law in a lawsuit, must apply state law on issues of substantive law.
Erie Railroad Co. v. Tompkins, 304 U.S. 64 (1938).
Texas law governs interest in land titles as well as surveys and is uniquely a creature of state law. Severance
v. Patterson, 370 S.W.3d 705, 713 (Tex. 2009).
72. Under Texas law, HORTON has the burden
to prove superior title via a trespassto-try-title claim,
as it “is the only way or method to perfect, claim or vest
title to real property in Texas.” Martin v. Amerman, 133
S.W.3d 262,265 (Tex. 2004).

App. 50
73. A trespass-to-try-title claim has never been
adjudicated on the merits for the Frederick Seiberman
Survey, A-497. However, the state court improperly
awarded title to the Sieberman Survey land under a
“quiet” title suit to HORTON. Collins v. D.R. HortonTexas Ltd., 574 S.W.3d 39, 46 (Tex. App.-Houston [14th
Dist.] 2018). The state’s order of awarding title under
a quiet title suit has no legal effect because a quiet title
suit cannot grant or divest title. Since HORTON is a
stranger to the Sieberman Survey title and its only basis for title is the void Federal Judgment the subject of
this vacatur, this Court has jurisdiction under this proceeding to properly determine title for the Frederick
Sieberman Survey, A-497, under a trespass to try title
suit brought herein in this Complaint.
74. “To prevail in a trespass-to-try-title action, a
plaintiff must (1) prove a regular chain of conveyances
from the sovereign, (2) establish superior title out of a
common source, (3) prove title by limitations, or (4)
prove title by prior possession coupled with proof that
possession was not abandoned.” Id. HORTON cannot
prove a regular chain of conveyances back to the sovereign or superior title. HORTON vehemently denies
title by limitation. HORTON, nor their predecessors in
title, ever possessed the Sieberman Survey land. However, COLLINS can prove a regular chain of conveyances from the sovereign, superior title out of the
common source of the Vernon Evans’ and James Collins’ heirs as averred in the attached affidavit Exhibit
D2 and by further proof if necessary.

App. 51
75. COLLINS asserts a trespass to try title claim
to the Sieberman Survey, A-497. HORTON improperly
and fraudulently drafted a warrantless deed to itself
based on a knowingly void Federal Judgment, being its
only foundation for title. COLLINS requests this honorable Court to declare the Property to be owned by
COLLINS.
JURY DEMAND
76. Plaintiffs request a jury on all issues of right
to be tried by a jury pursuant to Federal Rule of Civil
Procedure 38.
PRAYER
WHEREFORE PREMISES
COLLINS prays that:

CONSIDERED,

a) HORTON be cited to answer and appear
herein, and that upon a final trial hereof;
b) This Court entertain this declaratory
judgment action and enter an order declaring the
Federal Judgment void and unenforceable as to
the Seiberman land and owners, the Frederick
Sieberman Survey, A-497, for all purposes against
all parties, including HORTON;
c) This Court adjudicate that the Frederick
Sieberman Survey, A-497, is an existing patented
State of Texas GLO land survey that comports
with the GLO certified patent, ground surveys,
witness marks and chain of title from the sovereign;

App. 52
d) This Court enter an order that COLLINS
is the record title owner from the sovereign of the
Frederick Sieberman Survey, A-497, as evidenced
by the requisite elements of the substantive Texas
law for trespass to try title and survey boundary
law; and,
e) COLLINS recover of and from HORTON
his damages as shown at the time of trial, his reasonable and necessary attorneys’ fees, costs and
litigation expenses, and such other and further relief, both general and special, legal and equitable
to which he may show himself justly entitled.
Respectfully submitted,
LAW OFFICE TONI L. COLLINS
s/ Toni L. Sharretts Collins
TONI L. SHARRETTS COLLINS
TBN 24037476; USBN 34208
11054 North Hidden Oaks
Conroe, Texas 77384
iceattorney@aol.com
281-827-7749

